<html>
<title> - EXPLORING THE USE OF TECHNOLOGY AND INNOVATION TO CREATE EFFICIENCIES AND HIGHER QUALITY IN HEALTH CARE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



                  EXPLORING THE USE OF TECHNOLOGY AND.
                 INNOVATION TO CREATE EFFICIENCIES AND.
                     HIGHER QUALITY IN HEALTH CARE

=======================================================================

                                 HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2016

                               __________

                          Serial No. 114-HL11

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                           U.S. GOVERNMENT PUBLISHING OFFICE                    
22-232 PDF                       WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1077607f507365636478757c603e737f7d3e">[email&#160;protected]</a>         


                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
DEVIN NUNES, California              CHARLES B. RANGEL, New York
PATRICK J. TIBERI, Ohio              JIM MCDERMOTT, Washington
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
CHARLES W. BOUSTANY, JR., Louisiana  RICHARD E. NEAL, Massachusetts
PETER J. ROSKAM, Illinois            XAVIER BECERRA, California
TOM PRICE, Georgia                   LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
TODD YOUNG, Indiana                  LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois
TOM RICE, South Carolina

                     David Stewart, Staff Director

                   Nick Gwyn, Minority Chief of Staff

                                 ______

                         SUBCOMMITTEE ON HEALTH

                   PATRICK J. TIBERI, Ohio, Chairman

SAM JOHNSON, Texas                   JIM MCDERMOTT, Washington
DEVIN NUNES, California              MIKE THOMPSON, California
PETER J. ROSKAM, Illinois            RON KIND, Wisconsin
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               BILL PASCRELL, JR., New Jersey
ADRIAN SMITH, Nebraska               DANNY DAVIS, Illinois
LYNN JENKINS, Kansas                 JOHN LEWIS, Georgia
KENNY MARCHANT, Texas
DIANE BLACK, Tennessee
ERIK PAULSEN, Minnesota

                            C O N T E N T S

                               __________

                                                                   Page

Advisory of September 14, 2016 announcing the hearing............     2

                               WITNESSES

Paul Black, Chief Executive Officer, Allscripts..................    26
Michael Gallup, President, TeleTracking Technologies.............    10
Greg Long, Chief Medical Officer, Senior Vice President, Systems 
  of Care, Thedacare.............................................    35
Jared Short, President and Chief Operating Officer, Cambia Health 
  Solutions......................................................    19

                       SUBMISSIONS FOR THE RECORD

Patient Flow Quarterly...........................................    68
HiMSS............................................................    79
Alliance for Home Dialysis.......................................    81
American Psychiatric Association.................................    83
Cape Fear Valley Health System...................................    88
TeleTracking Technologies........................................    91
CHiME............................................................   105
International Association of Fire Chiefs.........................    10
NACDS............................................................   111
nhe..............................................................   117
RCSPG............................................................   119
Carilion Clinic..................................................   123

                        QUESTIONS FOR THE RECORD

The Honorable Tom Price..........................................    63

 
 EXPLORING THE USE OF TECHNOLOGY AND INNOVATION TO CREATE EFFICIENCIES 
                   AND HIGHER QUALITY IN HEALTH CARE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2016

                  House of Representatives,
                       Committee on Ways and Means,
                                    Subcommittee on Health,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1100, Longworth House Office Building, Hon. Pat Tiberi 
[chairman of the subcommittee] presiding.
    [The advisory announcing the hearing follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                
    Chairman TIBERI. The subcommittee will come to order. 
Welcome to the Ways and Means Subcommittee on Health hearing on 
exploring the use of technology and innovation to create 
efficiencies, higher quality, and better access for 
beneficiaries in our healthcare system.
    Over the last decade, Congress has passed several pieces of 
legislation that would expand the use of health information 
technology on a wide scale, helping to spur a wave of 
innovation and technological advancement. While these 
advancements have, in part, been utilized under meaningful use 
in the Electronic Health Record Incentives Program, there are a 
myriad of companies out there inventing and developing and 
groundbreaking products that we do not yet see in Federal 
healthcare programs, like Medicare. The commercial sector of 
health care is utilizing many of these innovations on a yearly 
basis to improve systems, medical facilities, beneficiary care, 
and collaborative care efforts. To date, Medicare has fallen 
significantly behind these efforts.
    We are here today to kick off discussions about the 
innovative and technological aspects of health care and explore 
how we can use already available emerging technologies to 
increase efficiency, reduce waste, improve outcomes, and create 
greater access to care for beneficiaries in the Medicare space. 
What I hope we can talk about today is not about increasing or 
decreasing Medicare spending but about using the existing 
dollars already in the program more efficiently, focusing on 
goals, like giving patients more time with their physicians, 
clinicians, and more control over their health information.
    I have heard from providers back in Ohio about clinician 
shortages that are jeopardizing access for Medicare 
beneficiaries who need the care. That scenario is both 
unacceptable and untenable. There are better ways to deliver 
care if we can lift barriers and incentivize greater efficiency 
among all providers. Partnering with those who share these 
goals, including those who are already developing innovative 
products to create these efficiencies, will be a positive step 
towards bolstering Medicare solvency.
    It is important to recognize what steps have already been 
taken to bring these technologies into the Medicare space. We 
can learn lessons from the implementation of the HITECH Act. 
Additionally, we can build upon the Medicare Access and CHIP 
Reauthorization Act, or MACRA. Rather than create more 
bureaucratic layers, Congress should continue to remove some of 
the regulatory burdens and barriers constricting advanced 
partnerships between technology and health care.
    During today's hearing, we will discuss the role of 
innovation in the healthcare industry, look at how providers 
are leveraging the power of technology to cut cost and improve 
care for all patients, and explore how Congress can apply these 
lessons in order to further break down barriers, rather than 
create them, to improve Medicare for beneficiaries and ensure 
that taxpayer dollars are being spent with these goals in mind.
    I now yield to the distinguished ranking member, Dr. 
McDermott, for the purposes of an opening statement.
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    Thank you for calling this hearing. In my opinion, it could 
be one of the most important hearings we have held during my 
time as ranking member on the subcommittee.
    Innovation will be central to our efforts to address rising 
healthcare costs. Currently, the United States spends 17.5 
percent of our gross domestic product on health care, and it is 
still rising. And although the Affordable Care has helped slow 
that growth, we still have work to do.
    Innovation through electronic health records, telemedicine 
and delivery system and payment reform must be part of our 
discussion. So I am interested in hearing from our witnesses 
about our progress in these areas.
    I am also interested in hearing about the challenges we 
continue to face, because recent events suggest that turning an 
innovative idea into reality isn't always a straightforward 
process. We often point to Accountable Care Organizations as an 
example of an important tool in our effort to shift toward a 
value-based system. If successful, they are supposed to lead to 
better outcomes at a lower cost. Care will be coordinated. 
Unnecessary services will be reduced, and the patients will be 
healthier.
    But recently, last week, the New York Times reported on the 
challenges facing Dartmouth, an innovator that has struggled to 
make their ACO model work in practice. Although Dartmouth was 
improving quality and reducing cost, it found that the ACO was 
unsustainable and had to withdraw from the program. This is 
just one data point. You can't draw straight lines with one 
data point, and it certainly doesn't mean ACOs are failures. 
What it does mean is there are questions we need to ask.
    We are trying to figure out where we are going as a country 
and how we can turn our investments and innovation into 
sustainable models moving forward. The process involves 
collecting data, trying new ideas, and learning from our 
experiences. My hope is that we can work together to do this in 
a bipartisan way. It hasn't always been easy. I know the Center 
for Medicare and Medicare Innovation, for example, has become 
embroiled in partisan politics. That is a shame. The work that 
the Innovation Center is doing will help us become more 
efficient and achieve our shared goals of containing costs. I 
am hopeful we can work together to support these efforts in the 
future.
    We have a great panel today, and I would like to hear our 
witnesses speak about the things they are doing to innovate and 
improve care. And I look forward to hearing from them about 
what works, what hasn't worked, and where they think we are 
heading, because I know we can all agree that without 
meaningful action on cost containment, we will continue down an 
unsustainable path in health care in this country. I look 
forward to a productive discussion this morning, and I hope we 
can work together to find solutions.
    Thank you, Mr. Chairman.
    Chairman TIBERI. Without objection, other members' opening 
statements will be made part of the record.
    Today's witness panel includes four experts. I would first 
like to yield to the gentleman from Pennsylvania, who will 
introduce our first witness.
    Mr. KELLY. Thank you, Chairman.
    I want to thank Chairman Tiberi for his leadership in 
convening today's hearing to improve health IT and innovation 
in today's healthcare field and to generate greater efficiency 
for America's seniors and patients as well as saving U.S. 
taxpayers an awful lot of money and doing it in the right way.
    A leader in this field is TeleTracking, a company based in 
western Pennsylvania. In fact, it is in Pittsburgh, 
Pennsylvania. TeleTracking's president Michael Gallup is 
testifying before us today to share TeleTracking's success in 
transforming companies from a patient flow automation company 
to a real-time automated operations management provider. 
TeleTracking's winning strategy has helped healthcare providers 
achieve broad operational efficiencies and cost savings. Mr. 
Gallup is leading TeleTracking's transformative healthcare 
policies. I look forward to his testimony today.
    And on a personal note, Mr. Chairman, I would like to just 
briefly talk about a man named Victor Phillips, who died March 
21, 1991. Mr. Phillips had open heart surgery, was in the 
hospital. And after the event, he had to be taken downstairs to 
another room for another event to take place or some type of a 
healthcare thing. I think it was dialysis. After they completed 
that, Mr. Phillips was on a gurney for almost 3 hours, because 
they forgot where he was. So he laid on this gurney for 3 or 4 
hours. Finally, somebody came by and said: What is this patient 
doing here?
    They said: We don't know. He had a procedure done.
    They said: He needs to go upstairs. He just had open-heart 
surgery, and he has been disconnected from all his monitoring 
machines.
    They got Mr. Phillips up to his room, but by that time, he 
had slipped into a coma. He lived for about a week. Now, this 
is a guy who was a World War II veteran. He survived the 
battlefield, but he did not survive his time in the hospital. 
And I can tell you that Mr. Phillips at that time was 77 years 
old. I knew him for about 10 years. And the way I met Mr. 
Phillips is he was the father of my wife. And I watched as he 
lay dying and thought, if somebody had known where he was, this 
never would have happened.
    TeleTracking is a type of company that says: This isn't 
going to happen anymore. We are doing it more effectively, more 
efficiently. And I tell you what: There is not a day that goes 
by that I don't thank the private sector for coming in here and 
telling us how to solve problems. The solutions are there with 
you. You have done great work.
    Chairman Tiberi, I mean this sincerely. Thank you so much 
for bringing this hearing up. And I really wish I could go back 
in time to see my father-in-law again, and I am sure I will see 
him again. But it was really--to sit and watch that man, after 
going through open-heart surgery and then get lost, not because 
he wasn't able to survive the surgery; he was lost somewhere in 
the whole system.
    So, Mr. Gallup, thanks for being here, and thanks for all 
of you being here. You do great work, and we look forward to 
your testimony. Thank you.
    Chairman TIBERI. Thank you, Mr. Kelly, for sharing that 
story.
    I would now like to yield to the gentleman from Oregon for 
our next introduction. Mr. Blumenauer.
    Mr. BLUMENAUER. Thank you, Mr. Chairman.
    My introduction is not quite as dramatic as my friend from 
Butler, but it is no less heartfelt. Welcoming Jared Short. 
Cambia is headquartered in Portland, Oregon. It is a collection 
of companies. Jared at one point managed their seven--I can't 
keep track of all of them--seven health insurance plans for the 
four northwest States. But, most recently, he has been focusing 
on areas of innovation, technology. They have services and 
technology, and Jared, as the chief operating officer, has been 
focused on that.
    I have been pleased to work with his company with people 
who are there who are committed to the same sort of 
collaboration that my friend from Butler referenced. It has 
helped me in my service, and I think we have been able to add 
some additional benefit for the legislative process. And I am 
looking forward to Jared's presentation today, and I think you 
will find it informative.
    Thank you, Mr. Chairman.
    Chairman TIBERI. Thank you, Mr. Blumenauer.
    And, finally, I am going to recognize Mr. Kind from 
Wisconsin to introduce our third witness.
    Mr. KIND. Thank you, Mr. Chairman.
    Mr. Chairman, I especially want to welcome Dr. Long. He is 
the chief medical officer and vice president of systems at 
ThedaCare in Wisconsin. It is the third largest healthcare 
provider in the State of Wisconsin, I believe still the largest 
employer in the northeastern part of the State as well, and one 
of the leaders in Affordable Care Organizations, the 
coordination of care, one of the lowest cost, highest quality 
providers we have throughout the Nation. I have had, on 
occasion, the chance to stop by and visit Dr. Toussaint, the 
team there, and seeing the work up close, what they are doing. 
And they are really pioneering a lot of interesting, innovative 
programs, especially in the so-called super-utilizer category 
that I am sure Dr. Long will touch upon a little bit, 
hopefully, in his testimony. I know he did in his written 
testimony.
    And it is one of the great challenges that we face, the 
fact that 20 percent of the population is consuming over 80 
percent of the healthcare expenses, and how do we provide 
better coordination and quality of care at a better price for 
that high-risk population to begin with?
    So, on behalf of our State, we are very proud of the work 
that ThedaCare does, and, Dr. Long, welcome to the committee 
today. Thanks for being here.
    Thank you Mr. Chairman.
    Chairman TIBERI. Thank you, Mr. Kind.
    And, finally, I would like to recognize Paul Black, the 
chief executive officer of Allscripts. He will be third on our 
panel today. We welcome all four of you for this innovative 
hearing.
    Mr. Gallup, you are going to go first. And it is great to 
see you again. We had a great visit at Ohio State, and my 
friends there are excited to work with you and have seen great 
results because of the work that you have done. So you are 
recognized for 5 minutes. Thanks for sharing your story with us 
today.

     STATEMENT OF MICHAEL GALLUP, PRESIDENT, TELETRACKING 
                 TECHNOLOGIES (PITTSBURGH, PA)

    Mr. GALLUP. Thank you, Chairman Tiberi, Ranking Member 
McDermott, and distinguished members of the Subcommittee on 
Health. This is my first time doing this and could be my last, 
depending on how it goes, since my boss is sitting behind me. 
So be nice.
    It is our great honor to be here today and discuss how 
innovations to drive efficiency in health care can increase 
access for all, provide a better experience for caregivers at a 
lower cost. Each year, nearly 2 million patients walk in and 
walk back out of an emergency department because they are tired 
and frustrated from waiting. Millions more find themselves 
waiting more than 6 hours to get a hospital bed. Every minute 
of every day an ambulance is diverted from its intended 
hospital, yet there are seven open beds for every two admitted 
patients. And why? Because there has been very little 
innovation or attention given to the logistical flow of 
patients, caregivers, assets and materials.
    We are here today with evidence to show that complete 
visibility and automation of logistics for everything in health 
care--beds, operating rooms, infusion chairs, patients, staff, 
equipment, et cetera--through a centralized command center can 
fundamentally change access to timely care for beneficiaries 
and decrease the frustration for doctors and nurses that they 
are suffering today.
    Efficiency and automation is not about cutting back on 
vital resources or labor. It is, however, about eliminating the 
documented waste of nearly $1 trillion annually. There are 
vital minutes, hours, and even days wasted in the system 
because we lack the necessary transparency and automation that 
is so prevalent in other service industries. Forty-six minutes 
was just enough time to save the life of a new mother suffering 
cardiac arrest. That is the amount of time it took for her to 
be transported from a regional hospital's emergency department 
to an intensive care unit at Baptist Memorial Hospital in 
Memphis, Tennessee, following an emergency C-section. A 
physician made one call to the Baptist operational command 
center. This coordination center automatically set up transport 
and secured on-call specialists in the matter of minutes. Upon 
her transfer, the specialists saved her life. This is 
efficiency.
    What if that new mother's ambulance was redirected to 
another facility 15 minutes away, an occurrence that is all too 
common? We see a Nation in which every health system is enabled 
by an operational command center connecting care for doctors' 
offices to clinics to hospitals and beyond, one that places 
real-time data in the hands of clinicians and administrators, 
one that sees everything--beds, patients, staff and equipment--
one that serves as a care traffic-control center. Dr. Joseph 
Underwood III at New York Presbyterian credits his coordination 
and command center with reducing the amount of time patients 
spend in the emergency department and allowing his doctors to 
spend more time with new patients. This is efficiency.
    Recently, a senior hospital executive called me and shared 
two stories, one about a patient in rural Texas who had 
suffered a stroke in need of immediate care at the right 
facility. With one call, transport was on its way, doctors and 
clinicians were alerted, preparations were made in real time. 
And as a result, the patient returned to his family completely 
healed.
    Even at 95 percent occupancy, this health system has been 
serving 2,000 more cases just like this every month without any 
added cost. The same executive went on to share, with this 
additional growth, his hospital system was able to serve 
thousands of community members without the means to pay for 
their care that they so desperately needed. This is efficiency.
    Efficiency is more than digitizing medical records. While 
crucial to the information sharing, medical records are not 
built to facilitate the movement of patients through a system. 
We are not seeking a handout, but we are asking you to consider 
the possibility of a truly efficient care delivery system. 
Michael Zamagias, the majority shareholder of TeleTracking, has 
dedicated himself to it for 25 years--who, mind you, pays 100 
percent of his employees' health care and has invested nearly a 
billion dollars into making healthcare command centers a 
reality.
    Through efficiencies and increased productivity, these care 
traffic-control centers are self-funding. No additional 
taxation is needed. Through these types of efficiencies, we can 
serve millions more patients by utilizing our underutilized 
assets, helping coordinate care so our doctors and nurses don't 
suffer from the wasted time. Less frustrated doctors and nurses 
are happier people. And by the way, those clinicians want this. 
I recently asked a nurse with a new command center what it 
meant to her, and she simply said: It changed my life. I spend 
my time with my patients now. This is efficiency.
    And one last story. TeleTracking was built on the premise 
that too much money created this problem and too little money 
will solve it. As an example, a chief executive officer called 
and thanked me for saving 308 jobs in his hospital as he 
eliminated costs from his system through the command center 
that allowed him to keep more clinicians and provide better 
care. This is efficiency.
    Thank you, Chairman Tiberi, Ranking Member McDermott, and 
members of the subcommittee.
    [The prepared statement of Mr. Gallup follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman TIBERI. Thank you, Mr. Gallup.
    Mr. Short, you are recognized for 5 minutes.

   STATEMENT OF JARED SHORT, CHIEF OPERATING OFFICER, CAMBIA 
                HEALTH SOLUTIONS (PORTLAND, OR)

    Mr. SHORT. Chairman Tiberi, Ranking Member McDermott, and 
members of the subcommittee, my name is Jared Short, and I am 
the chief operating officer for Cambia Health Solutions in 
Portland, Oregon. Cambia is a not-for-profit health solutions 
company that is committed to creating personalized experiences 
for people and improving the healthcare system. We are best 
known for creating the employer coverage insurance market a 
hundred years ago, but our footprint has grown. We are a family 
today of 20 companies, serving 80 million people, integrating 
technology to make health care simpler and more personalized. 
Cambia is making care simple for people by creating a consumer 
experience platform powered by technology. We are putting 
people at the center of everything and connecting the dots in 
health care that have not been connected before.
    With our tools, people can search for treatments. They can 
find out how much they cost. They can schedule appointments. 
Lastly, they can have drugs and medical devices delivered to 
their homes. And if they need help, we can help them with a 
human being. In my written testimony, we give examples of our 
health solutions and list our entire set of direct health 
solutions companies.
    For now, let me give you an example of one of our 
solutions, HealthSparq, a transparency tool that allows people 
to shop for healthcare services. It is a first-of-its-kind 
platform, launched in 2005, that shows individuals the price 
and quality of healthcare services, allowing them to comparison 
shop and make appointments. Think of it like an Amazon or 
Expedia experience, but for health care. HealthSparq is a 
simple one-stop-shopping experience.
    We have another solution called MedSavvy that helps people 
understand whether a prescription medication will work for 
them. MedSavvy provides information about the effectiveness and 
cost of prescription medications at a personalized level. It 
assigns each drug a letter grade, like a report card we would 
receive in school, so people can more easily compare one drug 
to another. Both patients and prescribing doctors can access 
the MedSavvy data that is used to determine the grades and post 
ratings and reviews about their own medication experiences.
    Another Cambia investment company, GNS Healthcare, is a 
company that collects patient data, analyzes it, and determines 
which treatments are the best match for individuals. GNS also 
has the capability to predict which patients are most likely to 
stop taking their medications. This process helps people have 
more success with their care plans and helps organizations 
lower cost related to medication adherence, diabetes, oncology 
and more.
    At Cambia, we understand that health care is complex and it 
is personal, which is why we are focused on putting the 
consumer at the center of everything we do. Cambia's platform 
is all about making it easier for consumers to learn, decide, 
and pay for health care, without intruding on the important 
relationship with trusted doctors.
    Elderly patients are frequent users of healthcare services. 
Today, there is an opportunity to expand these tools and 
capabilities into our senior population. We can help them save 
money, help the system save money, and it gives our seniors the 
health care they hope for and, quite frankly, they deserve.
    The Medicare program, by the way, can modernize its systems 
just like the private sector is doing. Beneficiaries can access 
the same capabilities that will allow them to live healthier 
and better lives.
    Cambia looks forward to helping the members of this 
committee transition Medicare into the next generation of data 
analytics, healthcare coordination, and patient engagement. 
Seniors are just as eager for timely, consumer-friendly access 
to care. They do not want to go in and out of hospitals when 
they do not need to, and our system can no longer afford this 
level of inefficiency.
    Cambia is interested in partnering in a broader discussion 
about how to apply our innovations to the Medicare program to 
our seniors so they can have access to modern, high-quality 
experience.
    Thank you for the opportunity to speak with you today. 
Cambia Health Solutions will be pleased to share additional 
information about our platform. Healthcare innovation is a work 
in progress, and we stand ready to assist the subcommittee as 
it continues its exploration of how technology can improve 
health care and the experience for Americans and their 
families. Thank you.
    [The prepared statement of Mr. Short follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman TIBERI. Thank you, Mr. Short.
    Mr. Black, you are recognized for 5 minutes. Thank you for 
being here.

 STATEMENT OF PAUL BLACK, CHIEF EXECUTIVE OFFICER, ALLSCRIPTS 
                         (CHICAGO, IL)

    Mr. BLACK. Chairman Tiberi, Ranking Member McDermott, 
distinguished members of the committee, thank you for the 
opportunity to share my perspective on the innovations taking 
place in health care. It is a privilege to be here discussing 
how technology is changing the way we care for people, 
improving access, efficiency, and quality while reducing cost.
    My name is Paul Black. I am the CEO of Allscripts. 
Allscripts is one of the largest developers of health 
information technology. We develop electronic health records, 
precision medicine solutions, and information exchange 
platforms. Nearly 180,000 physicians, 2,700 hospitals utilize 
Allscripts' solutions daily. We employ 7,000 people, with 
offices in 16 States, including Illinois, North Carolina, 
Vermont, Georgia, and Massachusetts. Allscripts' employees live 
in all 50 States. We are also majority owner of Netsmart, the 
leading healthcare IT company serving the behavioral health and 
mental health and home-health industries.
    Despite some bumps in the road, as can be expected when 
times have changed, there has been a substantial progress in 
our industry that would never have happened had Congress not 
provided the impetus for ubiquitous adoption of electronic 
health records. These changes have disrupted paper systems that 
stood for decades, and the result is a new digital ecosystem of 
caregivers, software developers, and patients, allowing all to 
take a fresh look at how processes can be enhanced via 
automation. Fortunately, following disruption, there is 
innovation and opportunity.
    In response, we have engineered solutions that sit on top 
of this new digital platform. We are leading the way in helping 
providers maximize the extensive data stores that have been 
created within their electronic health records. Our clients use 
these tools to harmonize volumes of data from the individuals' 
genomic story all the way up to the community's population 
health view. Allow me to give a few examples.
    Allscripts' dbMotion interoperability platform, an 
information-exchange and patient-matching engine, brings 
together clinical content from across the community into a 
single patient view. We create access to this data from both 
within Allscripts and other electronic health records, all in 
the clinician's natural workflow. We connect over 350 different 
data sources, including electronic health records, developed by 
virtually all vendors, public health departments, and third-
party claims systems. In fact, at the University of Pittsburgh 
Medical Center, the wait time for patient data decreased from 
as long as 20 hours down to 5 seconds, and the time physicians 
spent searching for information dropped from up to 40 minutes 
down to 1.
    Importantly, when a physician clicks the community view of 
their patient at UPMC, they make a different clinical decision 
60 percent of the time. At Baylor Scott and White Health in 
Dallas, a 12-year-old girl was spared a second CAT scan when 
images from her initial ER visit were available later at 
another hospital inside of a different electronic health 
record. The ability to pull up these images prevented 
unnecessary radiation and saved her family more than $3,000. We 
recognize that tomorrow's healthcare networks aren't being 
built by our company alone. Since 2007, before ONC regulatory 
requirements, Allscripts launched an open approach to our 
electronic health applications, allowing third parties to 
integrate with our solutions. This has grown to a network of 
over 4,000 certified developers and providers using apps that 
will exchange information over 1 billion times this year alone.
    Program highlights include an app that helps connect 
diabetic patient data directly into their doctor's electronic 
health record, an app that helps patients quickly and 
accurately provide updates before a practice visit, an app that 
helps providers connect patients to relevant clinical trials 
while still onsite in their office, and an app that rapidly 
fills available appointments following a cancellation, avoiding 
lost practice revenue and creating accelerated access to care.
    Beyond our own innovations, our clients have also 
capitalized on this open platform, building solutions to 
deliver results to their patients. As I described in detail in 
my written testimony, clients from Phoenix Children's, 
University Hospitals of Cleveland, and Orlando Health have all 
built tools on top of our electronic health records to almost 
eliminate errors in medication dosing and administration, 
noticeably decrease rates of sepsis, and dramatically reduce 
readmissions, all of which drove material cost savings and 
improved outcomes.
    Allscripts was also the first in the industry to make 
significant investment in the area of precision medicine, 
aligning Congress' interest in this opportunity. We recently 
launched our 2bPrecise solution, which will help caregivers 
proactively identify optimal patients for genomic sequencing 
and make the results available, understandable and actionable 
at the point of care. The NIH will be an early adopter of the 
2bPrecise solution.
    We are early supporters of the Cancer Moonshot and among 
the first participants in the White House's Sync for Science 
effort, working with clients to contribute data to the NIH 
cohort of 1 million lives.
    There have been many more recent examples of innovation 
improvements, both for providers and patients. We would be 
happy to speak with any of you about our specific work in your 
district. Thank you for the opportunity to be here today.
    [The prepared statement of Mr. Black follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman TIBERI. Thank you, Mr. Black.
    Dr. Long, you are recognized for 5 minutes.

  STATEMENT OF GREG LONG, M.D., CHIEF MEDICAL OFFICER, SENIOR 
   VICE PRESIDENT, SYSTEMS OF CARE, THEDACARE (APPLETON, WI)

    Dr. LONG. Thank you. Chairman Tiberi, Ranking Member 
McDermott, and distinguished members of the subcommittee, my 
name is Greg Long. I am a family physician, and I serve as the 
chief medical officer and senior vice president for ThedaCare. 
Thank you for this invitation to appear today and discuss how 
technology and innovation can be leveraged to improve access to 
care and deliver better care at a lower cost. It is an honor to 
appear before you today alongside this distinguished panel.
    As Mr. Kind had mentioned, ThedaCare is a not-for-profit, 
community-owned health system in northeastern Wisconsin, 
consisting of 7 hospitals, 34 health clinics, serving 8 
counties. We are the third largest health system in the State, 
and we serve over 240,000 patients. Over a third of those are 
Medicare beneficiaries.
    ThedaCare has for many years dedicated itself to advancing 
information technology to improve the way our professionals 
treat and engage with patients, expand access, and provide 
better, more coordinated care. In recognition of these efforts, 
ThedaCare has earned the Most Wired award for 15 straight 
years.
    ThedaCare is also committed to delivering high-value care, 
and to us this means delivering the highest quality in a highly 
efficient manner, thereby lowering costs for patients and the 
overall health system at large. We are early adopters in 
healthcare quality improvement, having adopted lean 
methodologies in our care since 2003. And we have developed an 
embedded culture of continuous improvement with our team 
members. Additionally, our CMMI pioneer ACO excelled as the 
highest quality, lowest cost provider organization in the 
Nation for each of the 3 years that we participated. And we are 
now excited to participate in the Next Generation and Pioneer 
ACO.
    ThedaCare is a member of the Healthcare Quality Coalition, 
a national group of leading health systems, hospital 
associations and medical societies that are striving to 
transition healthcare delivery to a value-based system.
    With that background, let me first talk about how we are 
managing our complex patient care panel. In our service areas, 
as in many parts of the Nation, a growing percentage of the 
population is challenged by obesity, alcohol abuse, diabetes, 
high blood pressure, asthma, and lack of access to primary 
care. To meet these challenges, ThedaCare embarked on a pilot 
in 2014 to identify our most highly complex, sickest patients 
in our internal medicine population in Appleton. We screened, 
with a database tool that we developed through our Epic EMR, a 
risk stratification module that has looked at 7,000 patients 
and from it identified 600 of the most complex.
    After we identified those patients, we enrolled almost 300 
patients in our team-based care model and identified a team, 
which consisted of three care coordinators, one registered 
nurse, one clinical pharmacist, one behavioral health 
clinician, one nurse practitioner, and one medical assistant, 
plus three part-time staff in the same disciplines. And this 
was a decentralized model where we put these practitioners 
right at the bedside in those clinics with the patient. As a 
first step in the model, each patient met with the care team, 
completed an initial assessment of medical, psychosocial, and 
other needs. A customized care plan was developed and specific 
goals were identified. Each patient received supportive 
services and intensive management, including chronic disease 
monitoring, management skills, behavioral health screening, 
psychotherapy, and other behavioral health care. Patients also 
received assistance in obtaining housing and other basic needs 
through collaboration with community organizations, including 
LEAVEN, the United Way, the Aging and Disability Resource 
Center, and the housing authority of the Fox Cities.
    The team provided home visits for patients with special 
needs and physical and mental incapacity. Team members would 
also accompany patients to specialist visits for health 
literacy and evaluate them in the hospital, when admitted, to 
help with their post-care planning, minimizing readmissions to 
the hospital.
    The results from this first pilot were extremely positive. 
The percentage of patients with uncontrolled diabetes decreased 
from 12 percent to less than 4 percent. Improvement was also 
noted in the percentage of patients with controlled high blood 
pressure, which increased from 89 percent to nearly 92 percent. 
And the percentage of patients who visited the emergency 
department more than 3 times in the previous 6 months fell from 
almost 50 percent to just below 19 percent. And for those 
patients with severe behavioral health symptoms, they were able 
to decrease their symptoms from 49 percent to 18 percent for 
anxiety and 53 percent to 40 percent for depression. And 
included in your written testimony, I give the table for other 
specifics on those results.
    As far as technology goes, to improve access, we have 
incorporated e-visits. Patients now are able to consult with 
their ThedaCare primary care physicians on certain conditions. 
And for a flat fee of $35 and without having to leave work, a 
patient can get a diagnosis, prescription and/or a referral for 
followup with respect to 9 clinical conditions, and we are in 
the process of adding 11 more. And we have over a 98 percent 
satisfaction rate with our patients.
    We also have tremendous experience with telepsychiatry. We 
have had a shortage of psychiatry, not only in our area but as 
recognized also in the country. We had a psychiatrist within 
ThedaCare that, for personal reasons, left our area and was 
still able to manage 2,000 patients from Utah to Wisconsin 
using telepsychiatry, having set up a remote clinic in the same 
office, and still sees, on average, 22 to 24 patients per day.
    Lastly, for technology, we are implementing a telestroke 
program, which, as you know, stroke is much like a heart attack 
in that time is critically important. So, in our outlying 
hospitals in the rural settings, we can now connect those EDs 
with clinical specialists from our stroke and have clot-busting 
medication delivered within a few minutes as opposed to 
potentially hours.
    So, again, in closing, from my perspective as a clinician, 
it is exciting to see the way that technology and innovation 
can transform care and improve outcomes for our patients. And, 
of course, like other healthcare providers, we continue to be 
challenged with the traditional reimbursement of fee-for-
service that do not always support technology and innovation 
care models. And for this reason, we will and have continued to 
explore payment alternatives like Next Generation and private-
payer contracting to better support these clearly improved 
models of care. Thank you again for this opportunity to 
testify.
    [The prepared statement of Mr. Long follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman TIBERI. Thank you, all four of you, for 
fascinating testimony. We have got a lot of member interest 
today. I am just going to have two quick questions here.
    Mr. Gallup, I will start with you. I had an opportunity to 
take a look at your numbers, and the success that TeleTracking 
brings to every facility it contracts with. I obviously had an 
opportunity to view what you are doing at Ohio State and saw 
that nerve center or command center, which was amazing.
    Is there a role for what you are doing on the commercial 
side under Federal healthcare programs? And do you have any 
experience with any government programs? Additionally, how can 
we utilize what you are doing for facilities out in our 
communities for Medicare, Medicaid, or other Federal programs?
    Mr. GALLUP. It's a good question. Let me start with one 
thing, as we all have these discussions up here, which is the 
care teams and people in the hospital are amazing. They are 
working as hard as they possibly can to deliver the best care. 
And I just want to make sure that that goes on record. A lot of 
this is a lack of tools that, frankly, we provide to them.
    And to your question, yes, we have some experience. 
Probably the best example is we are currently working with NHS 
in England right now. There is a lot going on with them. And we 
have gone at that from a public-private partnership 
perspective. We are working with a group called NHSI, NHS 
Improvement. We found three different trusts over there that 
they are monitoring and that we are working in and putting this 
platform into place. And what we have done with them is created 
a 50/50 kind of investment model, where they put in a dollar, 
we put in a dollar, and we invest in helping them get this 
technology and be able to help their patients.
    Obviously, as you all know, they are publicly funded 
totally, and that causes some significantly different behavior 
in the fact of it is a total zero-sum game. There isn't a lot 
more money to go get. And they have found that the way to do 
this is--I mean, they have an aging population, as we do, and 
they have got to put more patients through the system than they 
have previously, and that is going to cost money. And so we 
help them see that you can get more patients through the system 
at the same rate, and that is what we have been working with 
them on. And we have a system--a trust there. I have to keep 
translating between their language and our language. So that we 
have a trust there that we are able to help get 10 percent more 
patients through at the same cost, and as a matter of fact, 
they even shut down units and were able to get more patients 
through their system to show that this was the way to serve 
more of their people. So we could do the same, similar thing.
    Chairman TIBERI. So, for my colleagues, I was at Ohio 
State's Medical Center, the Wexner Medical Center, a couple 
years ago. And they had a challenge that many hospitals had 
that they had not enough space, at least they thought. Not 
enough space. And so they had people in the emergency room in 
the hallways. So I go back to Ohio State last month, maybe 
July, I can't remember, it all runs together now. And Mr. 
Gallup was there. Dr. Retchin, the CEO, took me to this command 
center. And if you can think about going to a restaurant. This 
is how Dr. Retchin described it to me. This command center has 
every room in the entire hospital in the command center. And I 
think green meant the room was empty; red meant the room was 
full; and orange meant it was being cleaned.
    So the fact of the matter is, in this command center now, 
they can communicate with the emergency room or the entire 
hospital, actually. And so, if you are a doc in the emergency 
room, you can see on the board if there is a room that is being 
cleaned that is going to be ready and when, or if a room that 
is empty, much like a maitre d' in a restaurant can look at a 
computer screen to see what table is empty or what table is 
being cleaned. And so the efficiency that you have brought to 
this hospital in Columbus has been incredibly important. So 
thank you for your leadership.
    Dr. Long, I have read a little bit about how your system 
has evolved over the years and how you have been cutting out 
the fat in the system. Kind of the same question I asked Mr. 
Gallup. Is there a way to apply this, and are there examples of 
what you have done through your experiences that could benefit 
Medicare or other Federal programs?
    Dr. LONG. Yes, absolutely. And really related to the last 
question, an interesting statistic that we found just in our 
organization alone, of our seven hospitals, we have 21,000 
inpatient discharges. In all total, our ambulatory practice, 
you see over a million touches per year compared to 21,000. So 
what we really like to try to do is catch people before they 
even have to make it to the hospital. So, in light of the 
shortage of primary care, we feel that our team-based care 
model, as an example that I shared, is a way to leverage 
clinicians working at the top of their license to be able to 
support primary care, which still traditionally is the touch 
point for these chronically ill patients. And just sharing the 
statistics I did, we feel that we at least have a model, once 
spread, can actually be as cost-effective, because we can pay 
for other caregivers, not necessarily having to hire as many 
physicians, managing larger panels of patients.
    And my future would be, can we get into some sort of a 
capitated model that is based on the risk of these patients, 
not in the old HMO way, but more customized for these panels, 
and certainly, Medicare falls into that category. And I think 
our experience with Pioneer would show that we were able to 
manage patients to the lowest spend per beneficiary, all while 
achieving the highest level of quality. So we think we have 
been able to do that for many years.
    So I think the key is, how do you match the payment 
methodology at the same time you are improving care. I think 
that has probably been the biggest barrier for most healthcare 
systems is that, as we continue to do the right thing for 
patients, we are currently cutting our own revenue and not 
being able to pay in a manner that I think would be most 
beneficial in the future. So I am very confident that we can do 
it if we can sort of match payment methodologies as we make 
those improvements.
    Chairman TIBERI. Great comments. Thank you.
    I will yield 5 minutes to Dr. McDermott.
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    Mr. Kelly told a story at the beginning, which, you know, 
you would say to yourself, how could that happen in a modern 
hospital with all this technology? I was involved with the 
surgeons in their application of a checklist kind of system 
that is used in the airlines. When a pilot is going to take off 
a plane, he has got a checklist of stuff he has got to go 
through, including going out and walking around under the plane 
and looking to see whatever is under there.
    Tell me what is in place in your system that protects the 
quality of care for patients. I am all for efficiency and 
saving money, but the bottom line, as far as I am concerned, is 
what happens to patients. And what happened in Mr. Kelly's 
story is unacceptable, and I wonder how you deal with that. In 
trying to cut costs and cut people, how do you prevent that? 
Any one of you can----
    Mr. BLACK. This is Paul Black. One of the things we try to 
do inside of our electronic medical records is provide a 
checklist set of capabilities that you are mentioning. The 
caregivers all are extraordinarily dedicated to the Hippocratic 
oath that they have taken, which is to do no harm. So there are 
a lot of people that are out there each and every day that are 
working as hard as they possibly can, and they are, in many 
cases, performing miracles. So I always try to start with that 
description first about these wonderful people that are out 
there.
    Mr. MCDERMOTT. I am a physician, so I understand what you 
are talking about.
    Mr. BLACK. Yes, you do. And, you know, they are busy. They 
have got a lot going on, and no one ever does anything to try 
to cut a corner that would cause any sort of avoidable medical 
error. There are checklist systems that you can have inside of 
the surgery suite, and there is bedside bar code 
administration. A lot of the errors that occur in the industry 
have to do with medication administration, and this thing you 
may have heard in the past about five rights: right bed, right 
patient, right dose, right caregiver, and right time. Those 
five doses--those five rights, as it is called, are things that 
we also automate as part of our medication administration 
process as part of the physician and caregiver order entry, and 
to complete that entire loop is all monitored and checked by 
the computer.
    Mr. GALLUP. You can have all those checklists, especially 
when you go into an OR or whatnot or providing drugs. In Mr. 
Kelly's example, the patient got lost somewhere in the 
hospital. The hospital is a big plant. So that is exactly what 
we do. We know exactly where those patients are. We know 
exactly where the staff members are. We, in real time, say, 
this patient has been in this space too long. We can actually 
tell you if a patient has been in a bathroom too long and maybe 
has fallen down. Right. These are the technologies that aren't 
out there in health care right now, to let you know exactly 
what is going on.
    And it even counts in the clinics. To the doctor's point, 
there is a lot more visits out in the clinics also, and these 
clinics could run more efficiently. We are working with a 
system, and I won't name the name, but they are very, very 
well-known for being one of the most efficient systems 
anywhere. And they thought their clinics were running at 80, 85 
percent. When we went in and put in these technologies, that 
say, ``Here's where people really are, here's what they are 
really doing,'' when they looked at it, they were at 35 percent 
utilization of all their assets, including the docs. So, 
imagine being a doctor, which you are, and you are being 
utilized at 35 percent, and you are told: You know what, if you 
did it this way, this way, this way, you could now do 30 
percent more work. You know?
    Mr. MCDERMOTT. Let me just follow up on that to ask you, if 
you have this system in place, who is monitoring and saying, 
``This person has been in the bathroom in their room too 
long''?
    Mr. GALLUP. The system will do that. The system will say--
--
    Mr. MCDERMOTT. Who does it tell? I mean, the system has got 
to some people somewhere.
    Mr. GALLUP. Yeah, yeah. It will tell the nurse who is 
assigned to that patient: Hey, nurse, this is what is going on.
    If the nurse is too busy, it will escalate to the charge 
nurse.
    Mr. MCDERMOTT. On her cell phone----
    Mr. GALLUP. On their cell phone.
    Mr. MCDERMOTT. Monitor, or where?
    Mr. GALLUP. On a cell phone, monitor, exactly right. Both 
of them start to alarm and start to say: This patient has been 
there too long.
    In all situations, you can send it to a pager, a phone. You 
can have it on a screen. You can have an audible alarm. You can 
do a lot of things to say: This has gone on too long.
    And that counts for everything from that perspective, 
right. That counts from: I got to get my patient from point A 
to point B, and I know how long it is supposed to take to get 
to point A to point B, and this is an emergency. How do I then 
help them get there?
    Does that make sense?
    Mr. MCDERMOTT. Yes. Thank you, Mr. Chairman.
    Chairman TIBERI. Thank you.
    Mr. Roskam is recognized for 5 minutes.
    Mr. ROSKAM. Thank you, Mr. Chairman.
    Mr. Chairman, good job hosting this today and calling this. 
This is important work, and I really appreciate the perspective 
of all of the witnesses, and I am learning things by listening 
to you, and I really appreciate your taking the time.
    Mr. Chairman, I have good news for you. You know what the 
good news is for you? The good news, Mr. Chairman, is that Mr. 
Blumenauer and I have been working on a bill that fits right 
into this theme. Let me briefly tell you about it, and I think 
you will like it, and I think our panel will like it as well. 
And it has to do with this notion of using the technology that 
is already deployed at the Department of Defense, applying that 
into a common access card for Medicare patients to go right at 
this question of fraud.
    And what Mr. Blumenauer and I are proposing is a pilot 
program, not a big rollout all across the country, but a pilot 
program to get at some of the waste and so forth and the actual 
fraudulent transactions that are being manipulated by 
criminals. So, in the Oversight Subcommittee that I chair, the 
fraud rate and erroneous payments last year was 12.7 percent. I 
just got a text from my staff that, hey, good news, it has 
dropped to 12.1 percent. So if you just do a quick back-of-the-
napkin calculation, we are throwing away, literally throwing 
away about $60 billion a year, roughly. So there is some very 
significant work for us to do, and I commend this to your 
attention.
    So let me just ask a couple of questions. Mr. Short, you 
were talking about, in your opening statement, about 
HealthSparq and MedSavvy. On HealthSparq, I assume it is kind 
of an app or a place that you can go online and so forth. How 
do you navigate through cost comparisons? Because one of the 
things that I think my constituents find frustrating is you go 
to a physician; there is a procedure that is done; and we have 
created this current system where the two people that should 
know the most about the cost of the transaction--that is, the 
physician and the patient--have no idea of the cost of the 
transaction. And our culture basically says: If you ask about 
the cost of a doctor, that is almost an offensive question. Try 
that. Hey, doc, what is this running me today? And your doctor 
will have an ashen-faced look. You got to talk to Mavis at the 
front desk. You go to Mavis at the front desk. She has no idea. 
So how is it that you have an idea?
    Mr. SHORT. That is a great question. The institutions of 
health care have created this mirage of walls, where 
transparency isn't something that is an everyday occurrence in 
health care. And so what we established was we worked with 70 
health plans across the country, and we took all of their 
provider registries. We took what their contractual rates are 
that they agreed to with providers, and we serve it up in what 
we call HealthSparq, our company, that allows a consumer, a 
member of any one of those 71 health plans covering 70-plus 
million Americans, to go in and do a search on their 
procedures, look at cost estimations, and actually look at what 
the cost is if they go to a particular doctor or a particular 
facility.
    Mr. ROSKAM. Okay. So it is calibrated, based on who the 
health provider is or, I am sorry, who the carrier is?
    Mr. SHORT. Yes.
    Mr. ROSKAM. Okay. Time is short. Could I just ask you to 
contemplate, the four of you, and maybe give us some feedback 
later? Because we don't have time. Legislatures tend to lag 
real life. It is just the way it is. It is not an inherent 
criticism. Legislative bodies don't lead, by and large. It is 
the nature of them. So we are hearing from you. You are hunting 
out ahead of the pack. And we are being urged, the theme today 
is we are being urged to catch up with you, which is what we 
should do.
    Could you give some thought to sort of blue-skying us 
further out? Like what is the next thing that we should be 
thinking of? What are the things that you are thinking of, you 
and your boards and so forth are thinking of that are 5 years 
out and 10 years out, not just today, but that we should 
actually be broadening out? We don't have time for that now, 
but I would be very open to continuing the discussion, and I 
know I speak for everybody here that is interested in this 
longer view.
    I yield back.
    Chairman TIBERI. Thank you, Mr. Roskam.
    Mr. Kind is recognized for 5 minutes.
    Mr. KIND. Thank you, Mr. Chairman.
    I would echo that sentiment. That would be a perfect tee-up 
for some future hearings to talk about the next 5, 10, 15 years 
and what is on the horizon and what we need to be thinking 
policywise to coordinate with the tremendous innovation that is 
taking place, because I agree with my good friend, Mr. 
McDermott. This is one of the more important and useful 
hearings that we are having this year, and inspiring, too, 
because of all the incredible innovation that is taking place 
in the healthcare field.
    Dr. Long, I would be remiss if I didn't ask you a question 
about your participation, ThedaCare's participation in the Next 
Gen ACO and the success that you guys have realized, because 
there have been some ACOs that have decided the risk-sharing 
component that is involved is not worth it because they have 
already been high-quality, low-cost for some time, and it 
hasn't worked that well for them, so they opted not to 
participate.
    But before we do, I think we have got three great 
revolutions going on right now in healthcare reform. One is, 
obviously, the build-out of the health information technology 
systems. Before the American Recovery Act, before ACA, we were 
deplorably behind the ball when it came to electronic medical 
records and the meaningful use and interoperability, our 
ability to start collecting the data so we know what is working 
and what isn't, and then disseminating that information and 
driving that back into the hands of doctors and patients so 
they can make good decisions with it. And we see a lot of that 
exploding right now. And, of course, in Wisconsin, we have got 
Epic Systems too out of Middleton that has been doing 
tremendous work. So that is one aspect of the revolution that 
is happening.
    Another is the delivery system reform that we are hearing 
about today, a more integrated, coordinated patient-centered 
healthcare delivery system that was long overdue. And, of 
course, being from Wisconsin, we have got providers of care, 
whether it is Theda, whether it is Gundersen, the Mayo System, 
Dean, Marshfield, Aurora, that have been at the forefront of 
this revolution on delivery system reform for some time. And 
then, finally, and I think the big one is aligning the 
financial incentives the right way so we are rewarding outcome, 
value, quality, and no longer fee-for-service and just doing 
more, regardless of results. That was bankrupting us, because 
right now we are on a race against time as a Nation, whether we 
can get smart quick enough in the healthcare field before we 
grow too old. And with 70 million boomers about to enter 
retirement and join Medicare, it is a race against the clock.
    But, Dr. Long, back to ThedaCare, the Next Gen ACO model 
that you are participating in, because I have heard, you know, 
some criticism, especially from the higher providers, the high-
quality, lower cost providers, that there is not much incentive 
for them to be joining this program because of the risk-sharing 
component and the fact that they have already been hitting 
those marks for some time. How has ThedaCare managed that?
    Dr. LONG. Well, thanks for the question. And it gets back 
to what I said a little bit earlier. We were in for 3 years in 
the original CMMI Pioneer. And one of the reasons we got out is 
because we thought we had hit that ability to get some shared 
savings back. So, to your point, when you are a high-quality, 
low-cost provider, there is not much left to be able to get in 
shared savings. And that is why we think the next step and 
somewhat to the blue-sky comment is, how do we then go from the 
current model and escalate that into more of a risk-adjusted 
capitation model where the low-cost providers can get a lump of 
money that they know they can make the necessary margin on, but 
still offer extremely high-quality care? So we got out of the 
Pioneer 2 years early, because we were concerned about that 
very issue. So it is a leap of faith to try to move to that 
next model, which there is a lot of nervousness about because 
of the old HMO days, but we think we can do it differently.
    Mr. KIND. Theda is also in a nine-county northeastern 
region of the State too, which includes a lot of rural areas. 
And, of course, I represent a large rural western Wisconsin 
area myself. But are there some unique challenges that rural 
providers are facing under the ACO model?
    Dr. LONG. Absolutely. And that is where I think we can 
connect with our community services. You know, we put together 
a rural health initiative that actually we supported and 
actually had a nurse going out to farmers in their homes and 
being able to help manage. So I think there are a lot of 
creative ways that you can put other clinicians with primary 
care physicians and expand the reach.
    You know, to Mr. McDermott's point, I mean, regardless of 
technology, medicine is still a pretty high-touch industry. And 
it was interesting in the New York Times just this past Sunday, 
you know, they talk about the old-fashioned way of treating 
diabetes. You can connect and engage people with technology, 
but you still have to work on all the things that are barriers 
for them to receive care.
    So I think it is very fitting to sort of get back to the 
basics, if you will, and help people through their psychosocial 
issues, their depression, their anxiety. And we have shown that 
we can manage that population.
    Mr. KIND. It is also about the vanguard of telehealth too. 
But I am especially intrigued and excited about the e-visit 
program that you set up, making it easier for people----
    Dr. LONG. Another way to get access.
    Mr. KIND. Electronic communication to get prescriptions and 
feedback without having to schedule an appointment, waiting 
time, and all the hassle that goes with that. So that is 
something more that we need to be exploring, I believe.
    Thank you, Mr. Chairman.
    Chairman TIBERI. Thank you, Mr. Kind.
    Mr. Smith is recognized for 5 minutes.
    Mr. SMITH. Thank you, Mr. Chairman.
    And thank you to our panel for sharing your insights and 
expertise. Obviously, a lot of taxpayer dollars are involved 
and the subject matter here today, and I certainly want to do 
my part in making sure that it is spent wisely.
    A common refrain that I hear when I visit hospitals across 
rural Nebraska is that the providers and administrators are 
certainly proud of the equipment that they have, but they are 
also concerned about their inability to meet the meaningful-use 
requirements and that they can't even communicate effectively 
with other providers or hospitals.
    And small hospitals have expressed concern that, after 
their upfront investment, they have to continue paying 
licensing and maintenance fees on their systems, which 
certainly can challenge each and every one of their budgets.
    Now, based on these concerns, I do have a couple questions, 
so if you will help me out here.
    I hesitate to suggest a one-size-fits-all system, because I 
doubt that that would work, and I don't know of anyone up here 
who would support that. But how can we ensure that this 
technology, which has been purchased, perhaps, can actually 
communicate one with another or even universally?
    Mr. BLACK. That is fundamentally what we do when I talked 
about our interoperability platform. I agree that the dollars 
have been spent, and that is one of the other distinctions that 
we have as a company is that we don't advocate ripping and 
replacing electronic medical records. We say the investments 
have been made. If the record doesn't work or if you have 
problems with your current supplier or they have decided not to 
go for MU3 compliance and you have a problem, go do that. But 
if you have one, make what you have work and have it be 
interoperable. And if your supplier does not have an open 
approach, then we will help you, as a client, get that data 
out. Everybody adheres to some level, to some form of 
standards. MU1 and MU2 guarantee that. So we can get the data, 
and I can emancipate that data, if you will, from the EMR if 
that needs to be done and there is some sort of effort on the 
other side from people not wanting to make that available.
    Mr. SMITH. So are you suggesting that, with relative ease, 
it can already be done--ease and/or low cost?
    Mr. BLACK. It is not necessarily easy, but it has been done 
at scale with a lot of very large organizations and some very 
small organizations. I have got people as large as HCA that 
uses our solution, and we have a client up in Vermont, a small 
50-bed hospital, that is trying to connect to 45 different 
physician practices to make all the information in that 
community available to one another on five different electronic 
medical record platforms.
    Mr. SMITH. And I might suggest that facilities do actually 
get quite smaller than that.
    Mr. BLACK. Yes, sir.
    Mr. SMITH. And yet I sense they are burdened even more so 
with the requirements and the mandates and the costs and the 
hoops, I mean, in very remote parts of our country.
    Now, on the topic of cost and so forth, can you demonstrate 
that there is enough competition in place right now that there 
is actually downward pressure on these costs? Because, I mean, 
talking to providers, I take away from them that they are 
concerned that their costs are just spiraling out of control in 
an upward fashion rather than more competition, driving down 
the cost.
    Mr. BLACK. Yeah. There is a lot of competition in these 
marketplaces. There are over 450 different electronic medical 
record suppliers that have been certified by the ONC, and there 
are various different models for pricing in that regard. There 
are license models. There are SaaS models, which is software as 
a service.
    One of the companies actually offers software for free. 
They make you look at advertising from PhRMA, but it is a free 
electronic medical record. So there are lots of different 
models that have been put out there.
    Over time, value, you know, gets displayed by what outcomes 
you are able to deliver with your client, and that is something 
we focus on very, very vehemently, which is we want to make 
sure our clients are successful in using these systems to 
connect, to transfer data, to look at it from a community 
standpoint, and then move that information once it has been 
analyzed back down to that caregiver so they can actually take 
action at the bedside, at the home, or wherever that might be.
    Mr. SMITH. Okay. Thank you.
    Thank you to our witnesses.
    Thank you, Mr. Chairman. I yield back.
    Chairman TIBERI. Thank you.
    Mr. Blumenauer is recognized for 5 minutes.
    Mr. BLUMENAUER. Thank you, Mr. Chairman.
    Mr. Short, I was probably derelict in not mentioning one 
item here that I think identifies can be as person-oriented 
approach to sustainable health care, because we have worked 
with your company, your CEO, Mark Ganz, for years on end-of-
life care. And watching what you folks have done on so many 
different levels to raise awareness, help in terms of policy 
development, empowering patients is deeply appreciated and I 
think makes a big difference and illustrates your approach.
    I wanted to just delve a little further into one point you 
made in the course of your testimony, where you are talking 
about having mechanisms to help people take prescription drugs 
that have been prescribed, presumably filled. My memory is that 
about half of them really are not taken.
    Now, we can be concerned perhaps about some extraordinary 
predatory pricing mechanisms on behalf of a few drug companies 
that raise eyebrows, but this stuff needs to be taken to have 
the transformational effect. What is it that you are doing that 
you think is closing that gap?
    Mr. SHORT. You know, in the space of pharmacy, it is the 
one place where transparency in health care today is absolutely 
possible right now. And so we started an effort that we call 
MedSavvy. I mentioned it in my own testimony.
    If you think about it today, when someone goes to their 
physician and is prescribed a medication, a quarter of the time 
when they show up at the pharmacy, they do not fill it because 
they were not aware of the cost out of pocket. There is another 
significant percentage of individuals who do not fill that 
prescription because of the side effects that are described by 
the pharmacist. There is another percentage that get home and, 
because that is in the back of their mind, don't complete it.
    And so we have done two things: One, with GNS Healthcare, 
through taking consumer lifestyle information by connecting 
with EMR claims data, by looking at just all of our claims data 
as an organization, we actually look and create predictors for 
which members, patients, consumers will not take their 
medications and will not likely show up at the pharmacy, who 
will stop 30 days later.
    And instead of try to create rules-based engines on the 
back end of all that and reach out to a consumer or to a member 
to solve the problem after the fact, we have worked to put 
MedSavvy in the hands of both physicians and the patients that 
essentially allows all those conversations to be offered 
upfront when the prescription is being prescribed.
    And so when I described the letter grades that we have 
talked about, literally looking at the effectiveness of 
medicine, which there is tremendous research on, to understand 
which drugs are most likely going to be successful and then 
actually allowing the physician at that time, through the 
MedSavvy application, to understand what that member's cost is 
going to be when they show up at the pharmacy, so there are no 
surprises, because that is the point to have the conversation, 
not to create lots of hoops downstream.
    Now, in the event that a consumer or patient has done all 
the things right to go home with that medication, through the 
work that we do in our algorithms with GNS, we do an outreach 
program. And this is where the human touch comes in, because 
care is human. And we will have care managers reach out to 
patients that we know are at risk of discontinuing their 
medication, asking them how it is working, if there are any 
complications, so that we can reconnect them with their 
physician. So that is what we have started in 2015 and 2016.
    Mr. BLUMENAUER. And what are the metrics in terms of the 
impact? How well does it work?
    Mr. SHORT. Metrics, so the metrics today are that we are in 
three pilots. We are in a pilot in the State of Idaho. We are 
in the State of Oregon. So they are both in pilot phases today. 
We are doing them with delivery systems. And the metrics today 
are that the physicians that are prescribing medications, a 
significant portion of the time when they are looking at that 
are actually having a different conversation with members, and 
we see an increase.
    It is early to tell you from a pilot standpoint what the 
actual metric will be, but today, there is about 79 percent 
engagement in the conversation, which is where we believe it 
starts.
    Mr. BLUMENAUER. And do you involve pharmacists in this?
    Mr. SHORT. We do. Actually, we employ pharmacists that do 
the work on the development of the programs and services. But 
from that point, we actually are all about enabling the patient 
physician conversation.
    Mr. BLUMENAUER. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman TIBERI. Thank you.
    Ms. Jenkins is recognized for 5 minutes.
    Ms. JENKINS. Thank you, Mr. Chairman. Thanks for holding 
this hearing.
    We thank the panel for your testimony and for joining us.
    This discussion regarding the use and future of healthcare 
technology and its ability to drive down the cost and increase 
access for Americans is a key discussion. I think most people 
know, in my home State of Kansas, we are one of the top 
agriculture and aerospace States. But what a lot of folks don't 
know is that we are a hub for health technology companies as 
well.
    And it is also a very rural State and has many residents 
that are unable to access needed care to their location away 
from a major city. And so one of my priorities on this 
subcommittee has always been to help folks in rural parts of 
Kansas get the care that they need more easily than they can 
today.
    So maybe my first question would be for Mr. Short. In your 
testimony, you touched on Cambia's investment in Carena and its 
ability to allow providers to extend their service area with 
virtual visits. How will that technology help folks in a place 
like rural Kansas get better access to better care and drive 
down the cost?
    Mr. SHORT. Absolutely. It is a great question.
    Telehealth today is a great extender outside of a 
traditional bricks-and-mortar setting in health care, 
especially in rural areas. There are pilots throughout the 
country--we have them in the State of Oregon--where rural 
county critical-access hospitals are doing telehealth with 
their patients that then enables a conversation to occur on 
whether or not they need to come into, if you will, Portland, a 
bigger city for more care.
    You know, when you think about access itself, I will speak 
to just seniors--6 in 10 seniors today have flip phones, 30 
percent have smartphones and mobile devices. And of that, 
things like Skyping, online chatting, are very, very common. 
When you think about seniors specifically when it comes to 
accessing care--and I think about my grandfather myself--
transportation is a significant problem to get to a facility to 
have care.
    I can remember being 16 years old and my grandfather 
needing to get to an office visit. And I would get out of 
school to take him. And guess what? He lay awake all night, 
worried, concerned, am I going to make it? I will tell you--he 
is no longer alive, but I wish we had Carena 20 years ago 
because my grandfather wouldn't have had to lay awake wondering 
is a 16-year-old grandson going to show up or not.
    And he could have done everything on his iPad. And they 
have iPads today. Because his conditions, his chronic 
conditions, which are prevalent in senior populations, he 
didn't have to go in and be seen firsthand. So when I think of 
rural areas--and I grew up in a rural area--what a great 
opportunity to extend care. What a great chance to connect 
additional care extenders so that it can connect into EMRs to 
prepopulate, so that when someone, a senior or a patient, ends 
up in a more critical care setting, all of that relevant 
information is there so that their treatment plans are holistic 
in nature and not point specific. So I think Carena is a great 
opportunity to extend that.
    Ms. JENKINS. Great. Thank you.
    Mr. Black, it sounds to me like the private sector is 
working really, really hard to solve this problem exchanging 
information between providers that we have heard about for so 
long. Can you just briefly tell us more about the progress and 
information exchange and what you think Congress should be 
doing to increase adoption of what is working?
    Mr. BLACK. I think that there is an awareness component 
here that is startling to me, quite frankly, because a lot of 
the things that people talk about with respect to the 
interoperability standards, the issues with regard to 
interoperability have been solved. And I think that there needs 
to be a greater awareness of what is happening out there in the 
small areas as well as the large areas, meaning the very small 
rural areas that need to have the connectivity as well as the 
larger organizations.
    Unfortunately, there have been hearings and other 
discussion about data blocking and needed discussions about 
that because that has occurred in the past. And I think, 
because of some of these hearings, those issues have been 
removed, either behaviorally or economically, or in some cases, 
there has been a way to actually call a hotline and to report 
somebody that is actually doing data blocking. So I think there 
are a lot of reports and a lot of data that are out there that 
would suggest that that has broadly been solved.
    I think that the work to be done through the ONC has also 
done a very good job and the new rules on MU3 actually create 
another layer of exposure into electronic medical record. So if 
I am a supplier of electronic medical records, the application 
program interface is a different layer by which somebody can 
get into. A third party can get into your record with 
permission, with security, et cetera, and pull data out. And 
that is a big component of what is inside the MU3 legislation 
that I think is very valuable.
    The other piece that is inside the MU3 legislation that is 
very valuable is ability for patients to get access to their 
data. And at the end of the day, I think this discussion has to 
center more around the ownership of the data is not a large 
company, it is not a for-profit company, it is not an 
electronic medical record supplier, it is not the physician. It 
is the person. It is the patient. And that is the person that 
should own it, and everything should be engineered around that 
experience.
    And I am telling you, now with the digital platform, there 
is going to be hundreds of people that understand that this 
platform is digital and this platform is accessible through 
APIs, and there is going to be a wealth of new innovation that 
sits on top of this thing when we look out over the next 5 
years. There is going to be blue-sky efforts. There is going to 
be all sorts of wonderful things get created as a result of 
this new platform that this great country has funded in great 
part over the course of the last 4\1/2\ years.
    Thank you.
    Chairman TIBERI. Good questions.
    Mr. Davis, you are recognized for 5 minutes.
    Mr. DAVIS. Thank you very much, Mr. Chairman.
    And I also want to thank all of our witnesses for being 
here.
    Dr. Black, it was indeed a pleasure to meet and have some 
discussion with you yesterday. And I know that Allscripts has 
made significant investment in finding more effective 
approaches to treating diabetes, which in some of the 
communities that I represent, has almost reached what I would 
call plague dimensions. Could you share a bit more indepth what 
it is that Allscripts has been looking at in terms of this.
    Mr. BLACK. Yes, sir. Thank you for the question.
    One of the things that we have as a byproduct of all this 
process automation is the data. And so we have, in our 
capability, over 40 million lives of humans that are out there 
that we have de-identified the data, and we actually perform a 
fair amount of research. There are all sorts of tools that data 
scientists can use to look at data.
    I have a thesis. I am going to go in and look for a 
problem, or I am going to let the data talk to me, if you will. 
That is called machine learning. And what we are seeing with 
our 40 million people is, when we have specifically looked at 
the diabetes problem, is there are seven conditions, seven 
items or data elements that are out there that are 
predeterminants of a future diabetic problem.
    And so what we are doing is looking for people who have 
those seven preconditions, where they may not yet be a 
diabetic, that we are working with them through cell phone 
alerts or other ways to score them on a health score basis to 
give caregivers or just the person themselves awareness that 
they actually are trending towards a diabetic condition.
    So that is another use that we talked a little bit earlier. 
My colleague from Cambia talked about the predicting capability 
of before somebody becomes debilitized by something as horrible 
as diabetes. Some of it is genetically engineered, and you, 
unfortunately, chose your parents incorrectly. Some of it is 
preventable. And some of this that we are working on has a lot 
to do with what prevention we can do by the data that will show 
the actions that you can take to prevent it.
    Mr. DAVIS. Thank you very much.
    Dr. Long, you also mentioned high blood pressure and 
diabetes as an area of significant interest. Could you share a 
bit what you have been working on?
    Dr. LONG. Absolutely. Thank you.
    Actually, to Mr. Black's point, I think this is a great 
example of where the technology and the high touch of medicine 
is still a great example. We are looking at, with this team-
based care model, that these clinicians, especially the care 
coordinators, we have 150 complex care patients that are 
assigned to, by name, a care coordinator. So they literally 
develop a relationship.
    What the data does is gives that care coordinator real-time 
point-of-care often information that if you have a diabetic, 
where are they in the system? Are they potentially going to be 
admitted to the hospital? Are they high risk for ED visits? So 
we can actually proactively reach out to these patients and 
oftentimes using technology in the rural areas, FaceTime, 
Skype, to interact with these folks and actually help them.
    Because what I talked about too--I didn't get into a lot of 
the details, but as most everybody knows, there is a lot of the 
psychosocial behavioral issues that actually prevent these 
high-risk patients from staying healthy or getting healthy. So 
this is a great marriage of data and our care coordination 
function team-based care model to reach out proactively and 
help those patients lose weight, get on the right diets, and 
get their chronic illness under control.
    Mr. DAVIS. Thank you very much.
    Dr. Black, you also mentioned a bit about clinical trials. 
And we know that there are some population groups that are 
reluctant to engage in clinical trials based upon historical 
acts that have occurred. Does Allscripts do anything to try and 
convince any of these groups to become more proactive relative 
to clinical trials?
    Mr. BLACK. Yes, sir. We are very convinced that we can help 
people identify, if they have a condition that they are 
suffering from, that your last hope has been exhausted and you 
now need to look for an experimental clinical trial or to be--
am I a candidate for a clinical trial that is out there, that 
is something that people have somewhat changed their mind over 
time.
    If I am sick and I have been to my primary care, I have 
been to my specialist, I am not getting any better, what else 
is out there? What conditions do I have that are so unique that 
I am not getting better?
    And that is why a clinical trial for us to be able to 
identify for them a trial that is local, a trial that would 
meet the criteria that they are currently--the conditions that 
they have, the medications they are on, and the, you know, even 
the behavioral health component. Here is a multifactorial 
complex problem that you are trying to navigate as a human, and 
to match them up electronically with a clinical trial is 
something that the PhRMA industry is eager to do that, and many 
patients, once we show them the evidence and the data, will be 
extraordinarily happy to become a participant in.
    Mr. DAVIS. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman TIBERI. Thank you.
    The gentleman from Texas, Mr. Marchant, is recognized for 5 
minutes.
    Mr. MARCHANT. Thank you, Mr. Chairman.
    I think my fear with all of this technology is that our 
government programs, Medicare and Medicaid, either have rules 
or regulations or there is legislation that is necessary to 
make it so that the doctors and hospitals can fully utilize 
these new technologies with these kinds of patients. Can I get 
each of the panel members to talk about that?
    Mr. Gallup.
    Mr. GALLUP. Yeah. It is a great question.
    What we see a lot of is a focus on the past. I really liked 
the comment before where it said, what are you going to do in 
the next 5 or 10 years? We even think of this idea of 
telehealth. Telehealth has to be coordinated in a way, and that 
is kind of where we want to go 5 or 10 years from now, is, how 
do you coordinate all that, right? So you can have a telehealth 
visit, but you might need to get them somewhere. How do you get 
them somewhere? Transportation is an issue. So how do you make 
that in real time and make that all easy?
    So what we are seeing more is, hey, we are so concerned 
about the past of meaningful use and all these pieces that are 
going on now, that we are kind of stuck in trying to get to 
that future. You know, we are talking about $60 billion in 
fraud. Well, we have a $200 billion in waste just from 
inefficiencies, at least, that has been documented.
    So how do we make all that work together? Our centers are 
seeing that we can help in the rural communities: 3,000 more 
patients on average are getting access to care that weren't at 
the same price, right. We are starting to see a day of length 
of stay decrease in these hospitals, but also that affects 
everything else. It means they are going somewhere else.
    And so, as we see it, you are right, which is how do we get 
out of this. We are talking about the fact that we had all this 
meaningful use stuff and we are stuck in it and we keep talking 
about how we should move to that next level. Mr. Black said, 
that we should start getting value from this. Let's start 
moving this forward. And these ideas of coordination and 
command centers that are bringing in telehealth, all the 
telemedicine pieces that are taking care of the rural 
communities.
    In one of your areas in Texas, there is the greatest 
example of helping the rural communities and helping those 
hospitals that are small, working together with large hospitals 
that I have ever seen. It is amazing, and sometime, I would 
love to share it with you because there are many, many, many, 
many patients and beneficiaries in Texas who are getting access 
to care that they wouldn't have had by all this coordination.
    Mr. MARCHANT. Thank you.
    Mr. Short.
    Mr. SHORT. I would just add, really moving to a place where 
we allow incentives to drive the innovations. Certainly, there 
are many capabilities that are coming to market that there are 
rules and there are regulations that make it challenging, 
especially when it comes to programs like Medicare.
    What I would offer up is that because these are new, the 
rules aren't set yet, and we don't know necessarily how to 
think about how to approve new concepts that are coming to 
market. We have to ask ourselves those questions. We have to 
ask ourselves the questions on, how should we regulate them? 
How should we allow regulatory processes to put in place 
safeguards at the same time?
    I think we have to rethink how we do that so that the 
innovations can get into the marketplace, and this is new 
ground.
    Mr. MARCHANT. Mr. Black.
    Mr. BLACK. We have 45,000 physician office practices, small 
group practices throughout the United States. One of the things 
that they are worried about today is the macrolegislation with 
respect to the reporting requirements that they are going to 
have on their end.
    And what I would hope is that, as we pass this legislation 
and as we are monitoring and measuring the compliance with it, 
that we don't make the reporting burden such that a small group 
physician practice participant says: I am out of here. I am 
done. I am going to retire early. I don't want that to be the 
last straw, if you will, that broke the camel's back.
    So great legislation, great capabilities, technologywise, 
et cetera, that are in that really will help suppose this 
digital layer better that is out there. But we also need to 
make sure, from a workflow standpoint, we don't add additional 
burden to that small physician office practice, who is already 
very, very stressed today to take care of the patients that 
they have and to do the important clinical reporting. But for a 
small office, that is a burden that we have to be very, very 
careful about the tipping point of asking too much from a 
regulatory standpoint for these folks to report.
    In this country, there are a lot of independent farmers, 
there are a lot of independent physicians that are out there, 
and it is a noun and a verb, as we call say with regard to 
these guys. They are still independent after, you know, the 
last 6 or 7 years. That is something they absolutely want to 
be. And I hate to have anything that we have collectively done 
force them to have to either quit the practice or I have to be 
employed by a large local organization, a large health system, 
or a large clinic practice if that is not really what I wanted 
to do.
    Chairman TIBERI. Thank you.
    The pride of Paterson, New Jersey, is recognized for 5 
minutes, Mr. Pascrell.
    Mr. PASCRELL. Thank you, Mr. Chairman.
    Mr. Chairman, the panel is great, and thank you for putting 
us together.
    Our healthcare system is undergoing a very fundamental 
shift right now by revolutionizing the way we pay for and the 
way we deliver health care. The Affordable Care Act laid the 
foundation for building a healthcare system that rewards 
quality outcomes and smart spending rather than the volume of 
services provided. And I am glad that the innovators are here 
today.
    The next step is promoting what I would consider further 
integration of innovative technology into the healthcare 
system. Health and medical technology has evolved rapidly over 
the recent years, which has resulted in, I believe, an 
improvement of patient care. I believe we must think critically 
about how to force their technology in order to improve the 
patient's experience.
    Mr. Short, one of your company's technologies, which you 
wrote about in your written testimony, the Caremerge tool, 
allows everyone in a patient's life, from the doctor to the 
insurer to the family member, to access information about the 
patient's care. Over the years, I have met with a lot of 
constituents, by the way, who have told me their stories about 
caring for family members and the hazards of it and the 
problems of it, challenges.
    Can you briefly discuss some of the benefits that the 
technology your company has developed can have in supporting 
family caregivers--very important, there is more and more of 
them--in possibly making a very difficult job a little bit 
easier?
    Mr. SHORT. Thank you. It is a great question.
    And I would say on two fronts: You know, first, Congressman 
Blumenauer a few minutes ago talked about our palliative care, 
end-of-life work. One of the places that we acknowledge is that 
palliative care is best between family members and physicians.
    So the first thing we did was we actually, through the 
Cambia Foundation, funded grants all around the country to 
delivery systems to actually rethink about the holistic end-to-
end care, including how you bring family members into that 
process. It eliminates confusion. It eliminates waste. And it 
allows you to focus on outcomes.
    So we have done that through our grants. It is something 
that we are several years into now and it is working very well. 
At the same time, we recognize that capabilities, like 
Caremerge, are necessary so that, depending on where people 
live and where they work and where they call home, and family 
can be connected with the physicians.
    So, in the case of Caremerge, we are actually working with 
acute-care facilities, who are working many times with frail 
situations and allowing everyone to be on a common page, if you 
will, about where a patient's or family member's care is 
currently at.
    Mr. PASCRELL. One of the shortcomings of the Affordable 
Care Act was dealing with the acute care and everything 
extending from that. And we could have done a much better job. 
We tried, but it didn't work.
    Mr. Long, in your testimony, you outlined a care model, 
ThedaCare, in using what couples team-based coordinated health 
care with additional support services in intensive case 
management for complex patients. That is not easy. I know that. 
That includes providing assistance with basic needs, as I 
understand it, like housing and life skills to manage stress, 
to manage anxiety, and addressing emotional support needs of 
caregivers, many times not even discussed.
    So, in your experience, has helping connect patients with 
these types of resources, would you consider that a positive 
impact on what we are talking about here today?
    Dr. LONG. Oh, thank you for the question.
    Absolutely. As you mentioned though, it is resource-
intensive, and I think that is where the challenge comes in, 
is, how do we support the resources to decentralize what has 
typically been central care coordination, central social 
workers, and actually putting them where these complex patients 
are in the healthcare system.
    So we have had an incredible impact. And if you think about 
population health, I think of it, you know, as three concentric 
circles: We have our clinic. We have our specialty caregivers. 
And then we have the community at large. We are probably remiss 
in not taking advantage of all the community resources that 
actually can help our patients quite dramatically, so that is a 
fundamental thing that we are focusing on to help leverage 
being able to care for them.
    Mr. PASCRELL. Thank you.
    I yield, Mr. Chairman.
    Chairman TIBERI. Thank you.
    The gentlelady from Tennessee, Mrs. Black, is recognized 
for 5 minutes.
    Mrs. BLACK OF TENNESSEE. Thank you, Mr. Chairman. I want to 
thank you for holding this very important meeting today, 
because it really does encapsulate the future of health care, 
the things that we are talking about here today. So many times 
we argue across the aisle, but I think this is one that we can 
all agree on that is the future of health care and that we need 
to get behind and make sure that we are listening to people 
like you that are out in the field and are so creative and 
innovative.
    I want to say, Mr. Gallup, I am really excited about your 
TeleTracking because I am an emergency room nurse who would 
call the floor and say, ``I have a patient ready for you,'' and 
they would say, ``That bed is not ready yet.'' And you would 
call an hour later, and they would say, ``That bed is still not 
ready yet.'' Boy, the thought that I could look on some screen 
and say, ``Wait a minute, there is a green light there so I am 
bringing the patient to you,'' it is exciting.
    I think, Mr. Chairman, we probably ought to take a road 
trip so we can see all this technology actually working, so I 
am all in for that.
    One aspect, a major aspect of health IT that I have been 
particularly engaged in is the telehealth. And I know that Ms. 
Jenkins started to talk about that and worked very closely with 
one of my colleagues here on Ways and Means, Mr. Thompson, on 
this topic. Earlier this year, we introduced a comprehensive 
bipartisan, bicameral piece of legislation once again showing 
that this is an issue that both sides care about.
    The bill, called CONNECT for Health Act, was endorsed by 
about 100 organizations from all over the spectrum in health 
care. It actually showed a study that was done by Avalere that 
you would actually save about $1.8 billion over 10 years if we 
were able to put this into place.
    And, Mr. Short, you talked about how you wish that your 
grandfather would've had access to some of the kind of 
telehealth that would have given him more assurances. And 
having two parents that are 91 years old and seeing what kind 
of technology is there and available for them is exciting. But 
it has got a lot of barriers there.
    And until this comprehensive bill actually is able to be 
passed, what I would like to ask of you all, in particular 
looking at remote patient monitoring, which is one that is 
really near and dear to my heart because I do have a rural 
district where I know this would really help--getting patients 
45 minutes to an hour and a half to a facility is very, very 
difficult, on windy roads, especially, when they need to be 
seen several times a month or whatever by different 
practitioners. What I would like to have each of you talk 
about, until we can get to that point where we can pass 
comprehensive legislation, what are some of the small but 
constructive steps that we could take today to begin this 
process of putting in and expanding life-changing telehealth 
services?
    And, Mr. Long, if I can start with you, since we seem to 
start at the other end, and just go down the aisle. And I know 
I don't have a lot of time left, so Mr. Long, briefly.
    Dr. LONG. Yes, thank you.
    Well, I think, as I mentioned both in my verbal and written 
testimony, the things aren't really that complicated that can 
get us a lot of leverage. So, whether it is the simple things 
like a low-cost e-visit to the very complex telestroke, it is 
all about keeping people where they are and not having to have 
them travel.
    Interestingly, I found in some of our rural areas, though, 
one of our simple barriers is that people are still on dial-up 
Internet, and it was somewhat surprising to me that there are 
still pockets of our remote areas that don't have the luxury of 
the high-speed Internet. And I know there is some talk about, 
how can we change that?
    Mrs. BLACK OF TENNESSEE. Yeah.
    Dr. LONG. But I think the technology exists, and I think 
providers and patients are eager for it. So some of it is just 
kind of fixing some of those infrastructure----
    Mrs. BLACK OF TENNESSEE. Get CMS to agree to pay for it.
    Mr. Black.
    Mr. BLACK. I think there has been a lot of discussion about 
telemedicine and the fact that people haven't been paying for 
it. I think a lot of innovators have bypassed the payment 
component. Obviously, folks to the left and to my right have 
actually figured out to way to do that.
    And the dollars that people spend on a visit, whether it is 
a consumer or their practitioner, they quickly get passed the, 
``I have got to bring the patient in order to see them, in 
order to get paid,'' if, in fact, they are taking care of the 
patient in the way that they want or it is some sort of 
financial risk for them.
    There are lots of different ways you can connect to these 
people. The wearable component as well is another thing we 
haven't talked about today. When you talk about remote patient 
monitoring, that is a big piece. You can connect that to the 
caregiver or some sort of central facility. There are a lot of 
clients that are out there that are doing that today in a hub-
and-spoke environment.
    I have got a brother who farms. I have got uncles who farm. 
I grew up in Iowa, so I know a fair amount about what it is 
like for people who don't want to get in a car, who are scared. 
They don't want to go to a big city. You know, when they get 
there, they are lost. You know, they don't like it.
    And so I have been actually, just through the years of 
knowing what is out there in the marketplace, I also have been 
having some preliminary discussions about how about repurposing 
some of the room inside the ASCS office. There is one ASCS 
office in every single county in the entire country. They have 
broadband. They have got this. They have got that. And it is a 
familiar place.
    People like the ASCS office because they know that is where 
people have historically given them money; they go for 
education, et cetera. And you could have a quick clinic, 
perhaps, there, and you might have a place where you could go 
plug in to get monitored or have your televisit at that 
facility if you don't have broadband at home. We are not going 
to get broadband in the entire country like we put the Rural 
Electricity Act in the 1930s. That is not going to happen for a 
while.
    Mrs. BLACK OF TENNESSEE. Well, thank you.
    And I know I have run out of time, so Mr. Short, Mr. 
Gallup, if you have other suggestions, would you just jot them 
down and send them back here to the committee? I certainly 
would appreciate that.
    Great suggestion.
    Mr. BLACK. Thank you.
    Mrs. BLACK OF TENNESSEE. I yield back.
    Chairman TIBERI. Thank you.
    The gentleman from Minnesota, Mr. Paulsen, is recognized 
for 5 minutes.
    Mr. PAULSEN. Thank you, Mr. Chairman, for holding this 
hearing. This has been a great panel, very interesting.
    We talked earlier about and heard some comments about the 
legislature and Congress lagging behind innovation. It is 
interesting because a technology entrepreneur once said that 
innovation is the ability to challenge authority and break 
rules. And as a result, there is often this conflict between 
what government does and what innovators do. Government, of 
course, makes rules, and innovators are all about breaking the 
rules to create something new.
    And innovation, when it is happening in such a fast pace 
and rapid pace, if we are not paying attention, if government 
is not paying attention, when, where, and how this innovation 
is happening, we are missing out on the opportunities.
    I will start with Mr. Short, but others may have comments--
you know, just from a cost perspective and the challenges we 
have within Medicare where there are so many regulations, for 
instance, what can the Medicare program be doing to collaborate 
better with the private sector, for instance, to support better 
engagement, to have more superior results? Or vice versa, how 
can Medicare adopt what the private sector might be doing in 
this respect as well?
    Mr. SHORT. It is a great question.
    Medicare has the ability and is frequently a significant 
influencer of care practices that are adopted across this 
country. And so, to the extent Medicare in a rural setting 
allows for innovations, even on a pilot basis, to be launched, 
deployed, that then again we could come back to and say, 
``Well, how should we think about rules and regulations that 
would allow for the further adoption of those capabilities,'' 
could really ignite greater levels of innovation when it comes 
to, you know, creating access.
    But most importantly, I think what we can continue to do, 
certainly with the amount of baby boomers who are aging into 
Medicare, certainly with cost challenges of Medicare, there is 
going to be tremendous institutional focus, whether it is about 
payers or providers or delivery systems.
    I would just encourage all of us to remember at the end of 
every one of these institutions is the patient or the consumer. 
And every one of us in this room have a story that we face when 
it comes to a loved one, and a family, a friend. And so many 
times, if we would put ourselves in the shoes of understanding 
that situation, the innovation becomes bright, and it becomes 
clear on what needs to be done. And I would encourage us at 
each and every day to do that first and foremost, because good 
things come from that.
    Mr. PAULSEN. Good. Any other comments off that?
    Mr. BLACK. Although, Medicare, the payer, that everybody 
pays attention to, so you have the economic club, if you will. 
And I think that the innovation that has been attempted through 
many of the different--whether it is the Pioneer ACOs or those 
other structures have been set up over the course of the last 5 
to 10 years--have been, I think, very influential in moving 
from a value-based or pay-for-performance or pay for quantity 
to pay-for-performance methodology.
    We have got a lot of folks in Tennessee. The folks got 
together there to get 22,000 people to be part of their cohort. 
They have got one primary practice, 160 docs. Now they have 
1,200 docs in the State of Tennessee that have got together 
through an interoperability platform, and they connect the 
information to take care of these 22,000 people in remote 
areas. And they are one of the top five in cost and one of the 
top 30 in quality in the State like Tennessee, where they have 
very little infrastructure in place.
    So there is a lot of innovation that is out there. I think 
that the structure that has been set up by Medicare is very 
valuable, and what has gone with CMS on the payment side has 
been incredibly influential in the innovation that has been 
spurred. And I would suggest that that rate of innovation and 
funding continues.
    Mr. PAULSEN. And, Mr. Short, you commented earlier about 
chronic care. And I think, obviously, with the demographics as 
you mentioned, 10,000 baby boomers retiring every day, chronic 
care management and coordinated care is the solution or the 
answer we need to focus on if we are going to be able to 
redirect dollars in a more cost-effective manner within 
Medicare.
    And, Mr. Short, you said let incentives drive innovation. 
And obviously, piloting, letting Medicare pilot things is a 
good way to do so. Is there anything else that we can do to 
actually incentivize innovation in the market?
    Mr. SHORT. I think there is always a lot to be thought of 
around innovation. I would say, top of mind, when you think 
about payment reforms that have passed to date and what is to 
come of that, I think continuing to see those through when it 
comes to how payers and providers collectively pay for service, 
I would say, looking over the next 2 to 3 years--we talked 
about ACOs earlier today, in terms of how they perform and what 
is working, what is not working--many times we will run on to 
the next innovation before we complete a current one. And I 
would say see through the current innovations as well in making 
sure that we deploy and scale some of them. Because many of 
these have the ability to be scaled, especially as my 
colleague, Mr. Black, talks about the interoperability. I think 
there are tremendous innovations on interoperability to come in 
terms of chronic care management across the population.
    Mr. PAULSEN. Thank you, Mr. Chairman. I yield back.
    Chairman TIBERI. Thank you.
    And last but not least, the pride of Butler, Pennsylvania, 
Mr. Kelly, is recognized for 5 minutes.
    Mr. KELLY. Thank you, Mr. Chairman.
    I want to thank all of you for being here today.
    I think it is interesting. When I first ran for office I 
was really trying to champion what we do in the private sector. 
And I had people constantly tell me: You know your problem, 
Kelly, is you don't get it. Look, the government can't be run 
the way the private sector is run.
    And I have said: No, it is just the opposite. That is the 
antithesis. The private sector can't possibly be run the way a 
government does.
    There is a handout. I think, Mr. Gallup, you provided it. 
Here is where the rubber meets the road: It is not about the 
money that we spend; it is about the money we spend that is 
used inefficiently and ineffectively.
    So, if you could, just kind of walk us through this, 
because I really don't understand how people can indulge in 
deficit spending, not year after year but decade after decade, 
and build a long-term debt that we know is going to sink our 
country, and say: You know, the problem is we are just not 
extracting enough money from hardworking American taxpayers. 
These people are going to have to cough up more money to 
support our inefficiencies.
    I think this is really stunning, and this really gets to 
the thing. Listen, is it about policy? Yes. But more 
importantly, it is about people. It is about people.
    Mr. Short, your grandfather, my father-in-law, this didn't 
have to happen. You know, it wasn't because they weren't 
spending money. It is because they were ineffective and 
inefficient, something we can't tolerate in the private sector. 
Well, you can, but you can't do it long because you go broke.
    Mr. Gallup, when I look at this, this is incredible. The 
United States of America--now, Pat, listen to this--out of 51 
countries, the United States of America ranks 44th out of 51, 
and we have really worked hard. We have been able to beat 
Bulgaria, who is number 45, and we are just about catching up 
with the Dominican Republic at 43.
    And it is hard for me to sit here and look at who we are 
and what we have been and how we have led the world in 
everything. Gosh, we can put a guy on the moon, but we can't 
get him through the emergency room. We can invent the Internet, 
but we can't get people through the hospital system. What the 
heck is wrong with us?
    But look at the spending. It isn't for lack of investment. 
Mr. Gallup, kind of walk us through this, because this is 
stunning, and it is also damning. It will ruin this country. If 
you can. This is incredible.
    Mr. GALLUP. I think you just did a great job of it. I mean, 
I think the best thing I would do is quote our clients, right. 
They know what is going on. And I think even the last Medicare 
question is very interesting where, what should we do about 
innovation? We shouldn't penalize people for coming up with 
innovations, right, number one. So if someone figures out how 
to do something better, the first thing we are going to do is 
cut, right, and that kind of scares people.
    But as we quote our clients, they will tell you the money 
is in the system, right. They will say that. It is exactly what 
you are saying. There is enough money in the system to get the 
patients through and give them the care that they need if we 
cut out the inefficiencies.
    To your point, we know that the CBO says 41 percent of the 
future of our hospitals are going to be running in the red. 
Why? Is it the funding issue? Or is it the fact that we don't 
have the right models in place, that we don't have the right 
efficiencies put in place, and we haven't decreased the cost of 
an adjusted discharge, right? We have enough.
    And I think Chairman Tiberi saw this, right. There are 
enough bricks and mortars. There is enough out there to be able 
to go and do this. This isn't about cutting resources. You 
know, we have a doctor shortage. We have a nurse shortage. We 
have all these shortages out there. How do we fix that? Well, 
let's get them more productive.
    Every study you see out there, a nurse is 30 percent 
productive. The other 30 percent we have got them stuck 
documenting. The other 30 percent they are out there trying 
to--and I know that isn't at 100, so it is 33, 33. But the 
point being is they are out there finding stuff, wasting their 
time.
    So, if we can take labor and help them become more 
productive, we can help doctors become more productive and not 
doing things they don't want to do, we then get more patients 
through at the same price. And that is what we have proven to 
NHS. That is what we have proved that many clients will stand 
up and say this is working for them.
    We are seeing thousands of more patients not just in the 
clinics, not just in the hospitals but in the clinics also. And 
that is what is going to cut the cost, right. If we can get 
more through at the same price, we have solved a lot of our 
problems.
    Mr. KELLY. Anybody else? Because you all have the answers. 
You have the answers. It is just, are we listening, and can we 
come up with a legislative fix to it? And I am saying, we have 
to do it, or we bankrupt our Nation.
    Dr. LONG. Mr. Kelly, I am not sure if I am allowed to say 
``hallelujah,'' but I am thinking it with your comments. But I 
think if you piece together all the great work that many 
organizations like these folks represent, I think the roadmap 
is out there. We all see the waste. We are all trying to 
improve it.
    My impression, even if you look at what the Pioneer has 
done, it is trying to look at where everybody is delivering 
care and try to do something that will work equally for 
everybody, and that is where you probably leave out those that 
are doing the best work and not trying to figure out how they 
could help create the roadmap that really needs to be the long-
term blue sky.
    So I think the information is out there if we can piece it 
together with folks like that are at this table. You know, I 
don't think it would be that hard to do. But I appreciate your 
comments.
    Mr. KELLY. Well, I can't tell you how much I appreciate 
your being here.
    And, Mr. Short, we are going to run out of time. But let me 
just say this to you: It is only over when we decide it is 
over. It is our ability to stick to the message and stick on 
course and make sure that we fight this to the very end. This 
is a win for every single American. It does not matter to me 
how they are registered, by the way. We can win this battle. 
The big thing is we just have to refuse to lose. We can win, 
and we can win for every single American.
    Thank you all for being here.
    Mr. Chairman, thank you so much.
    Chairman TIBERI. Mr. Kelly, would you like to submit those 
statistics for the record?
    Mr. KELLY. Yes, I would love to submit them for the record. 
Thank you.
    Chairman TIBERI. Without objection.
    Chairman TIBERI. Thank you, Mr. Kelly.
    I want to thank the four of you today for spending some 
time with us. To just piggyback on what Mr. Kelly said, you 
give us hope. You give me hope. These are such important 
issues. And innovation is a key, I think, to solving this 
problem, and you guys are the forefront of that. We have only 
begun to touch these issues, and we are going to dig deeper 
into these issues in the future, and I hope you stay in touch 
with us as we do that.
    Before we adjourn, not knowing exactly what the calendar 
looks like the rest of the year--and I am not in the prediction 
business--and not knowing then if we might have another hearing 
or not, I want to take this opportunity to thank Dr. McDermott 
for, yes, your distinguished service to this Congress over the 
years, 14 terms to be exact. It has truly been--underline, 
bold--an adventure working with you.
    I hope that, as you leave this body, that you believe that 
our disagreements--and there have been many--are heartfelt. I 
believe that your views are heartfelt, sir. And I also wish you 
the very best in your next steps.
    You may.
    Mr. MCDERMOTT. Mr. Chairman, I didn't know this was my swan 
song.
    Chairman TIBERI. It may not be. There may be another one.
    Mr. MCDERMOTT. I know sometimes you hope it would be my 
swan song, but it has been a pleasure serving on this 
committee. When I came to Congress 28 years ago, I made up my 
mind I was going one place, which was to the Health 
Subcommittee, the Ways and Means Committee. It took me a while 
to get there, and then it took me a while to get next to you.
    But I believe that this area is such a large part of our 
economy as well as such a large part of our question of 
national security and how we take care of Americans that it is 
central to making decisions that affect every single American.
    Leaving the Congress, I don't leave eagerly or glad to get 
away from it or anything else. I am sorry I am not going to 
stay because the development that we are talking about here 
today is going to go on and on, and it is going faster and 
faster.
    When I went to medical school and graduated in 1963, the 
only thing that was left was anatomy. And even that has been 
changed by now. They are changing so many body parts that it is 
hardly the medical school I went to. But this committee has the 
potential of doing more good for the American people than 
perhaps any other single subcommittee in the Congress.
    Chairman TIBERI. We agree.
    Mr. MCDERMOTT. It has been a pleasure to serve here with 
you, even though sometimes you are wrong.
    Chairman TIBERI. I will let that go.
    Please be advised that members will have 2 weeks to submit 
written questions to be answered later in writing. Those 
questions and your answers will be made part of our formal 
hearing, as is your testimony. Thank you.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 11:57 p.m., the subcommittee was adjourned.]
    [Questions for the record follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
